No. 20-433

Sin the gpupreme Court of the Einiteb states'
MARK ANTHONY JENKINS,
Petitioner
v.
TIMOTHY O'ROURKE, Jefferson Parish Assistant District
Attorney, Jefferson Parish Juvenile Court; ROBERT M. MURPHY, Former Judge of
the Louisiana Fifth Circuit Court of Appeal; KRISTYL TREADAWAY; BARRON
BURMASTER. Judge

Defendants
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT

REPLY BRIEF TO OPPOSITION ON BEHALF OF TIMOTHY O'ROURKE
Mark Anthony Jenkins
Petitioner Pro Se
3301 Hwy. 1 South
P.O. Box 1402
Donaldsonville, La. 70346
504-610-8147

RECEIVENOV 1 8 2090
OFFICE OF THE CLEAK
SUPREME COUR r U.S.

TABLE OF CONTENTS

TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii

REPLY REGARDING FACTS AND EVIDENCE

1-2

REPLY REGARDING EXXON MOBIL REQUIREMENTS

2-4

REPLY REGARDING BURCIAGA AND TURNER
REPLY REGARDING THE DISCIPLINARY ACTION

4
5-7

APPENDIX:
LETTER SENT TO ADA O'ROURKE AND ATTORNEY
TREADAWAY

A 1-3

TREADAWAY'S COMPLAINT TO ODC

A 4-7

TABLE OF AUTHORITIES
Cases
Federal
Exxon Mobil Corp., et al. v. Saudi Basic Industries Corp,
544 U.S. 280 (2005)

2-3

Burciaga v. Deutsche Bank Nat't Trust Co., 871 F.3d 380
(5th Cir. 2017)

4

Rohi v. Brewer, No.20-20005, (5th Cir. 10/28/20)

6-7

Turner v. Chase, 334 F.Appx.657 (5th Cir. 2009)

4

State
In re Mire, 2005-1453, 197 So.3d 656, (La. 2/19/16),
Louisiana Rules of Professional Conduct: Rule 8.2

ii

5-6
5

REPLY TO RESPONDENT'S OPPOSITION BRIEF
The petition's facts are supported by court documents and the Opposition
Brief does not attempt to disprove them.
The Opposition Brief calls the facts, stated in the petition and
supported by court documents in the Appendix and Supplemental Appendix,
"incredible allegations of a conspiracy" and "fantastical." At the same time it does
not attempt to contest even one. They prove that the former Louisiana Appellate
Court Judge Robert Murphy was able to rule on the issue of legal paternity
presented to him for "supervisory review" in a writ application from the district
court which had not ruled on legal paternity. Indeed, no trial court ruled on legal
paternity, yet the issue was decided in the Louisiana Court of Appeals. How can the
Louisiana court of appeals have original jurisdiction? Isn't the Court of Appeals
supposed to review a judgment of the trial court?
The Opposition Brief quotes from page 9 of the federal district court's Opinion
which inexplicably accepted uncritically the Louisiana Fifth Circuit's intentional
misrepresentation of supervisory jurisdiction that dispensed with the need for a
trial court ruling before a "review." How can the U.S. Fifth Circuit find that the
Louisiana Fifth Circuit had subject matter jurisdiction on supervisory review when
the district court, from which the application for writs was taken, had not decided
the legal paternity issue? The federal lower courts are absolutely wrong and the
question is: How could they make such a mistake?
This violation of due process of law was accomplished by two judges and a
private attorney committing individual acts of malfeasance that are proven by the
1

court documents. All of their acts were needed to prevent Treadaway's stipulation
in juvenile court, that there was no authentic act of acknowledgment to make
Jenkins the legal father, from being considered in a trial in juvenile court.
The evidence is shocking and compelling. The fact that only one Louisiana
Supreme Court Justice voted to grant writ of certiorari on two separate writ
applications in this case; and that the federal district and circuit court judges
denied seeing the obvious lack of subject matter jurisdiction is even more shocking.
Mark Anthony Jenkins and the people of Louisiana need this Honorable Court to
hear this case.
Exxon MobilCorp., et al. v. Saudi Basic Industries Corp, 544 U.S. 280 (2005)
requirement for state court judgments to bar federal district court jurisdiction of
this action are not met.
Exxon Mobil requires that 1) the state court judgment must be the cause of
the injury complained of petitioner; and 2) that the petitioner must be asking the
federal district court to review and reject the state court's ruling.
Causation
It was not an erroneous state court judgment that caused the injury
complained of in this civil rights case. The injury was caused by an illegal act of the
respondent former appellate court judge, who usurped an issue from juvenile court
before a trial was had in order to keep the evidence (a stipulation made in juvenile
court) from being considered. He then arranged to have the issue presented in an
assignment of error from a district court judgment involving the same parties so
that the evidence would not be on that court record. The resulting judgment
2

handed down on July 31, 2015 is void ab initio for lack of supervisory subject matter
jurisdiction.
The 2017 judgment, granting exceptions of no cause of action and res judicata
to a petition to nullify the 2015 ruling, did not cause the constitution injury stated
in the Complaint. It simply left uncorrected the injury caused by the illegal act of
the appellate court judge.
Review of the state judgments is not needed
Review of the state court judgments is not required because they did not cause
the injury complained of. It does not take a review to determine that the court of
appeals did not have subject matter jurisdiction over the legal paternity issue in
2015. The question of subject matter jurisdiction is not "inextricably intertwined"
with the judgment itself. It is supposed to be routinely determined before the court
takes up the issues in the assignment of errors.
The Louisiana Court of Appeals' March, 2017 judgment, which affirmed the
Louisiana district court's granting of the exceptions of res judicata and no cause of
action to the action to nullify the 2015 judgment does not require review either. The
district court did not rule on whether the court of appeals had subject matter
jurisdiction over legal paternity in the 2015 Judgment. Jenkins attorney argued it
but the district court ruled that the action to nullify the ruling of the court of
appeals had prescribed, and with only that ruling it granted the exceptions.
Therefore, when it went up on appeal, the Louisiana Fifth Circuit did not have
subject matter jurisdiction to rule on the subject matter jurisdiction issue.

3

The role of the disciplinary system in this case
The Opposition Brief stated that the disciplinary action that does not allow
attorney Abadie to be enrolled in the SCOTUS bar was the result of her "handling"
of the Jenkins case. The facts show that is incorrect. The disciplinary action was
initiated by attorney Kristyl Treadaway's Complaint to the Office of Disciplinary
Counsel. Her letter of Complaint is dated September 16, 2015, which shows she
filed it after she received by fax on September 14, 2015 the letter dated September
15, 2015. It accused her and ADA O'Rourke of collusion with Judge Murphy. See
Appendix to Reply Brief: letter on pages 1-3, and complaint to ODC on pages 4-7. To
get ahead of any revelation of what had occurred, she filed filed the complaint.
Abadie relied on facts proven by court documents in making the accusation.
Disciplinary counsel, the Committee, and the Board were given the court documents
that are included in the Appendix and Supplemental Appendix to this Complaint.
Abadie expected that the truth of the accusation would be her defense to the
disciplinary charges based on the rules of professional ethics.
Louisiana Rules of Professional Conduct
Rule 8.2 Judicial and Legal Official
(a) A lawyer shall not make a statement that the lawyer knows to
be false or with reckless disregard as to its truth or falsity concerning
the qualifications or integrity of a judge ....
In re Mire, 2005-1453 ( La. 2/19/16), 197 So.3d 656, is a disciplinary
proceeding against an attorney who alleged that a judge had a part of the court's
recording of a hearing spliced out. Attorney Mire had expert testimony that
supported this contention. Justice Weimer dissented from the majority Opinion:

5

The Court of Appeals affirmed the granting of the exceptions without giving a
reason. Pages before its ruling, the opinion claimed it had subject matter
jurisdiction when it ruled in 2015 but since that issue was not decided by the
district court those comments are mere dicta. Therefore, with the state court
judgments not being the cause of the civil rights injury, and with no need to review
them, the federal district court has jurisdiction to hear this civil rights action.
The Void ab Initio Exception to the Rooker-Feldman Doctrine
After inexplicably finding that the state appellate court had subject matter
jurisdiction over legal paternity in the Jenkins case, the Federal Fifth Circuit
incorrectly found it unclear if the circuit had adopted the void ab initio exception. It
really did not state why or how Burciaga v. Deutsche Bank Nat't Trust Co., 871
F.3d 380 (5th Cir. 2017) was "unclear." Burciaga clearly stated: 'The RookerFeldman doctrine is inapplicable to [the] counterclaims for two independent
reasons. First, the Vacating Order was not a final judgment... Second, the ...Order
is void under Texas Law...." (Emphasis added.) Id. at 386.
That statement indicates that the Texas court judgment was void ab initio
and for that reason alone it could not block federal lower court jurisdiction under
the Rooker-Feldman doctrine. Instead of dealing with Burciaga in the Opposition
Brief, respondent argues Turner v. Chase, 334 F.Appx.657 (5th Cir. 2009). In Turner
the plaintiff challenged a state court divorce decree. She asked that it be
determined to be void based on fraud but she did not claim lack of subject matter
jurisdiction as the basis for declaring it void. Turner is not analogous to the Jenkins
case for that reason.
4

We are required to evaluate the totality of the facts in this
record to determine if there is an objective factual basis for the
attorney to have made the allegations. In performing this evaluation,
"we must not create an environment in which an attorney, who is
duty bound to report concern about our judicial system, will
become too timid in alleging a concern due to fear of being disciplined."
Mire at 670. (Emphasis added.)
Despite the proof, disciplinary counsel and the individuals, unknown to
Abadie, that were on the Hearing Committee and Disciplinary Board did not notice
violation of due process by Judge Murphy; the misrepresentation of the district
court judgment in Treadaway's writ application; or Judge Burmaster's total
memory loss that he had set legal paternity for trial, that gave a more than
reasonable basis for her allegation to opposing counsel. However, Disciplinary
Counsel combed the extensive pleadings and memoranda for anything they could
possibly be construed as a mistake by Abadie. It appears the disciplinary system is
being used against an attorney who complains about a judge's malfeasance.
Treadaway could go to the disciplinary office without a concern that it would notice
what she had done. Not a word about that has been acknowledged by Disciplinary
Counsel, the Committee, or the Board. In the hearing the Board asked few
questions. Its-main interest was to ask for an apology to Judge Murphy. An apology
from Abadie would undermine this 42 U.S.C.:1983 action. Pressure was applied by
Disciplinary Counsel asking for an increase in the punishment recommended by the
Committee. It went from six months to a year of suspension. This was done knowing
that litigation was in the Federal Court System. Disciplinary Counsel disregards
what Rohi v. Brewer, No.20-20005, ( 5th Cir. 10/28/20) described as"... the sworn
duty of every member of the legal profession —to subordinate his or her own interest
6

to those of the client." The disciplinary case is going to the Louisiana
Supreme Court.
As for all of the judges who have seen this case, only one found
that the Louisiana Court of Appeals did not have subject matter
jurisdiction to decide legal paternity. Under these circumstances a
hearing by this Honorable Court is needed to recognize and discourage
favoritism to a judge who violates due process of law.
Respectfully submitted,

Mark Antho Jenkins, pro se
3301 Hwy. 1 South
P.O. Box 1402
Donaldsonville, La. 70346

No. 20-433
In the Supreme Court of the United States
MARK ANTHONY JENKINS,
Petitioner,
v.
TIMOTHY O'ROURKE, Jefferson Parish Assistant DistrictAttorney,
Jefferson Parish Juvenile Court; ROBERT M. MURPHY, Former Judge of
the Louisiana Fifth Circuit Court of Appeal; KRISTYL TREADAWAY;
BARRON BURMASTER. Judge, Respondents

APPENDIX TO REPLY BRIEF

pages

Letter faxed to Attorney Treadaway and ADA O'Rourke
Written by Cecelia Abadie. Not mailed to addressees -.1-3
Complaint filed by Attorney Treadaway to ODC

4-7

•
PAiE

89/14/2815 12:53 9855427859

Cecelia Farace Abadie
Attorney at Law
20 White Drive
Ratumend, L0131511112a 70401.
Phone & fax: 985-542-7859
September 15, 2015

.
feive-Are-r

rhea:notable Paul. Cant ick
District Attontey, Jefferson Parish
200 Derbigny Street
Gretna, Louisiana 70053

r ta s
oPt-j ft. 44,0s

a..dt

t; N

The Honorable Chris Broadwater
Louisiana Representative
112 S.'Cypress Street
Hammond, Louisiana
Re: Jenkins v. JaCkson, 24th JDC, No. 711-419, Div. "A"
Fifth Circuit No. 13-C-296
Fifth Circuit, No. 15-C-399
Supreme Court, No. 15-CS-1621
.

State of La. in theInterest of Mat* Jenkins Jr. v. Mark Jenkins Sr.,
No. 2003-NS-1371, Juvenile Court, Jefferson Pa.rish,, Seaton C

Dear District Attorney Connick and Representative Broiuiwater: '

_-

-

lam writing to inform you of what appears to be collusion ba the judicial process resulting from
the
relationship between the Department of Children and Family Services, the Juvenile Court system,
and Judge
Robert Murphy of the Fifth Circuit Court of Appeal.
I am the attorney representing Mark Jetlidas Sr. in theplieie referenced actions. Recently, DCFS
and
N.:Judge Murphy appear to have colluded to prevent tItt hearin,giofthe_isatte of legal
paternity in juvenile Court
on June 15, 2015. Ms. Treadaway, attorney for Ms. Jacicson,irequested and obtained a legally
unnecessary
continuance from juvenile Court so that her writ applicatlon!'from a Feburary 4, 2015 Yudgmen
t.of the 246'
JDC could be used as the apporuntity for the Fifth Circuit id decide the legal paternity issue de
novo_ The
issues of the existence of an authentic act of acknowledgment or legal paternity were not related
to the
Judgment from which the writ was taken. •
This extraordinary maneuver Was needed by DCFS because DCFS and Treadaway had already
onfessed in Juvenile Court that that there was no authentic act of acknowledgment. By not
having that
evidence in the record of the 24thilx• ;where the issue of the existence of an authentic act
had never been.
litigated or decided, Judge Murphy ,ans able to ignore the evidence in the Juvenile Court record
and pick from
the record in the 246 JDC selected evidence of a "judicial confession" to "an acknowledgment
of legal
paternity." Jenkins was thus deprived of the right to have the evidence in the Juvenile Court applied
to the
issue of an authentic act.

Received Time Sep. 14. 215 12:4 1PM No. 8472
. .

09/14/2015 12:53 9855427859

PAGE aw3

This maneuver could not have happened by
chance: it had. to be planned by DCF
DCFS saw the confession in Juvenile Court
to the non-existence of an authentic act of S and Judge Murphy.
acknowledgment as an
open door to possible reimbursement of child
support for Mr. Jenkins. It consulted with
Judge Murphy and it
was only a matter of getting a continuance
to stop Juvenile Court from deciding the issue
of legal paternity,
and theausing the writ application taken by
Ms. Treadaway to have Judge Murphy
decide it
I will be happy to send yod a copy of my appl
ication for a writ of certiorari, which describes
happened and why. Also I can forward Judg
what
e Murphy's decision. It contains deliberate
misrepresentations of
the facts and law in an exercise to justify deci
ding the issue that was not within the
scope of the writ
application. Judge Murphy had to find a "jud
icial
confession" to siging an authentic act of ackn
a substitute for an actual authentic act
owledgMent as
of ackn
could make Mr. Jenkins the legal father unde owledgment because only an authentic act of acknowledgment
r former C.C. Art. 203.
In 2008, DCFS (then DSS), had 'a' bill spon
sored to add a two-year prescriptive period
revoke an authentic act of acknowledgment
on the right to
under La. R.S. 9:406. The representative of
DSS, a Ms. Shaw,
deliberately misrepresented the existing law
when she appeared before Senator Murray
of the Senate Judiciary
Committee. She claimed that DSS could not
obtain child support from the actual biologica
acknowledger wasaiot the biological father
l
until the acknowledgment was revoked. Ther father when an
efore, she claimed the
child was left without support until the ackn
owledgment was revoked. That was absolutel
46:236.1.2D(1) shows DCFS could always
y untrue as R.S.
go after the biological father for support.
DCFS actually wanted to prevent acknowle
dgers, who had been deceived, from revoking
acknowledgment after two years. Their oblig
the
ation to pay support would go on unit! the
child became a major.
Ms. Shaw later became a Rearing Officer for
DCFS. The video of her appearance before
Senator Murray in.
the Senate Judiciary Committee meeting on
April 22, 2008 is available on. the legislatur
e's website. In 2013,
the Fifth Circuit interpreted the prescriptive
period to apply to an authentic act executed
in 1997 before the
prescriptive period was enacted.
Representative Broadwater, since the reason
stated by DCFS/DSS for the necessity of putti
prescriptive period on the right to revoke an
ng a
authentic act of acknowledgment obtained
by fraud was not true,
I ask that you sponsor a bill to delete that pres
criptive period from the statute, and make
that deletion
retroactive to cases like Mr. Jenkins.
Also, an more importantly, the show of pow
er by which a legal issue was taken from The
Court before it could be decided and then deci
Juvenile
ded de novo by the Court of Appeal means
it can happen again. I
ask that you sponser a bill to enact a statute
drawing a bright line between the scope of
a writ
the issue that the Court of Appeal can deci
de for the first time, on its own, and without givin application and
g the parties the
opportunity to present evidence. The maneuve
r poses a threat to the integrity of the syste
m and must be
addressed.
As it is, the Department has too much pow
er in the Juvenile COurt and with the Fifth
Circuit. I do not
think there is even a pretense that ex-parte
communications do not go on. Most people
who go to Juvenile
Court do not even have an attorney to figh
t for them. The playing field could be leve
led if the public was
informed of these problems and a light is throw
n on how DCFS operates.
District Attorney Connick, the Department
in this case failed to establish paternity before
order for support. In view of how relatively
obtaining an
inexpensive it is for the state to obtain pate
rnity testing, and
because the law requires the state to offer a
paternity test in an attempt to establish paternity
in the
circumstances of this case, there is no excu
se for the state to fail in its obligation. How
ever, when I spoke with
Charles Higgins of the Department; he deni
ed it had an obligation to establish paternity
before obtaining an

Received Time Sep. 14. 2015 12:4
1PM 16.8472

09/14/,2815 1253

9655427859

PAGE 04

rTh
order for support. Th
tecoidicla his stttement. SectS. 46:236.1.2 A(3), and law of
this Slate that
.
Makes PaternitYthe basis for the obligation to support aebild.
The comptitation of prObability of paternity in the DNA report on Samuel SCott,
who is the ,an who
Claimed 'to be the father of Jackson's son shows a 99.999999997% probability That
Seed Is the biological
father. it is it the record of the 246 713C case. With it, I can prove that LataSha
-Jackson committed fraud on
bilaric Jenkins St. baba:use the a:vitness, to Whom Scott confessed, also testified
that Scott stated that he learned
from Larakha Jackson that he was the father when the child was a baby in her arms.
The boy Was about six
years old When Jackson and Jenkins contracted for slipport. She absolutely
deceived
son who Was not his. That should conic in under the hearsay exception if Mr. Scott him into supporting her
fails to appear for triaL
I will be setting tiro issue Of lackosn' s fraud for trial; and also the issue of negi
igence or fraud
committed by DCFS. While frond is a crime, my client only wanted monetary
compensation for what he has
paid tine to Etaud. Judge -Murphy's finding of legal paternity, deSpite the evidence
in the Juvenile Court record
to the contrary, seems to preVent reimbursement Ms. Jackson shOuldhot be rewarded
for paternity fraud With
cora:Mired child support from Mr. Jenkins, the victim. DCPS bears some responsib
ility for this injustice and
ahould attempt to reach anequimble arrangement I have written to and called
ADA
speak with him bUt he does not respond to my messages. District Attorney Connick, Timothy O'Rourke to
I hope that you can
:encottage 21.n equitable ablution to this unjust situation, and that is why I have
appealed to you.
15CFS IS pursuing Mr..renkins for past dile support that was suspended during
some periods Of this
litigation plus current monthly support Until the boy, born on September 17, 1997,
graduates from high sdhool.
Jackson and her son arc not in. necessitous condition. He is her only child and
she is an educated working
woman who lives with her second husband. Mr. Jenkins has two sons in elcmenta.
ry school and he is
employed as a bits driver. He is a good man who should be given justice, and his
'Own children need his
support
1-cannot explain why tbe Supreme Court did not act to prevent this travesty from happening
again, 'out
I am heartened that there was at least one person on the abort who was willing to state that
he was appalled by
what has happened here. Included With this iaa copy of the Supreme Court's action
on the writ of certiorari.
Somethriet that is enough:to bring the truth out 1 beg for justice. and for a system
that is designed to prevent
cronyism.
Please contact me if you need any more informatien. Joan forWard'copies of Judge
Murphy's decision
and my application for writ of certiorari if YonWant
'
to ;tad them. Thank you for taking the time to read this
and I pray that his, canbe resolved. equitably.
Bet ectfully,
uelja Abadie
Attorney at Law
c.e. Timothy O'Itottike, liCFS
Attorney Kristyl Treadaway

Rettivcd Time Sep. 14. 2015 12:41PM ,No. 8472

rTh

463

•

004

SALLEY
SAL~L EY

Sandra S. Salley'
L.auret A. Salley":
KriStyl R Treadaway

L.L.C.

'Beard Certified. Family; taw Specialisi
Lobisiana Board;of Legal Spetializaticin

Attorneys at Law, LLC
3445 North CauewayeSoulevard
Suite 510
Metairie, Louisiana 70002
E-mail: sa11ey2(gbellsouth.net
Phone: (504) 837-5499
fax (504) 837-5411

September 16, 2015

Office of the Disciplinary Counsel
4000 S. Sherwood Forest Blvd.
Suite 607
Baton Rouge, LouiSiana 7081.6

Re:

Cecelia Farace Abadie
24th JDC, No. 711-419, Div. A
Jefferson Juvenile Court No. 2013-NS-1371
5th Circuit Court of Appeal, No. 2015-C-399
Supreme Court No. 2015-CJ-1622

Dear Sir or Madam,
Ms. AbadialS the opp6sing counsel in t~r✓o separate domestic matters, both involving the
same parties. Litigation began in February, 2012. While Ms. Abadie has always attacked My
client, Ms. Latasha tuckson, in her pleadings, she recently began directing her attacks at me
before various Courts. Most recently, Ms. Abadie is now attacking the Department of Children and
Family Services and Judge RObert Murphy of the 5" Circuit Court of Appeal. Given Ms. Abaclie's
recent actions, specifically her getting even more hostile toward not only me, but the Court, I have
no choice bUt to bring her behavior to your attention.
The parties, Mr. Jenkins and Ms. Tuckson, had a child ih 1997. The father acknowledged
the child by signing his birth certificate. Mr. Jerikins subsequently married Ms. Tuckson. The
parties later divorced and Mr. Jenkins was ordered to pay child support. In 2012, the father had
suspicions that he was not the child's father. Ms. Abadie, representing the father, filed a Petition
to revoke the father's acknowledgment and to terminate the Child support. I do not believe that Ms.
Abadie practices domestic law on a regular basis. Therefore, she did not realize that
accomplishing this task was a two step process, first by revoking the formal acknowledgment in
District Court and, if successful, terminating the child support in Jefferson Juvenile Court. Instead,
Ms. Abadie filed numerous pleadings between both Courts asking for things to Which she was not
legally entitled. This resulted in mass confusion for all involved. In an effort to keep the history of this case as brief as possible, I will explain the main points
for the 24th Judicial District Court case. before I explain the Jefferson Juvenile Court case. The two
overlap which creates.the confusion but I will try to simplify it as much as possible. Ms. Abadie
filed a Petition to revoke Mr. Jenkins' formal acknowledgment and for damages on February 16,
2012 in 24m Judicial District Court before Judge Steib. MS. Tuckson's prior counsel filed an
Exception of.Prescription alleging that the cause of action was prescribed pursuant to La. R.S.

005

9:406 (one of two statutes under which a request to revoke a formal acknowledgment must be
made). This exception was denied by Judge Steib at the trial court level. An Application for
Supervisory Writs were taken and the 5th Circuit granted writs. The 5m Circuit found that
the cause
of action was prescribed under La. R.S. 9:406 but remanded the case to 24th Judicial District
Court
for Ms. Abadie to proceed under another applicable statute. Ms. Abadie requested rehearing by
.the 5th Circuit, which was denied. She then sought writ of certiorari
with the Supreme Court, which
was not considered since it was not timely filed. •
enrolled in the instant case at this time. A DNA test was taken which proved that Mr.
Jenkins was not.the child's biological father. There were several pointless pleadings filed by Ms.
Abadie in 2013, which I will not discuss 'here. In 2014, Ms. Abadie's professionalism severely
declined. An example of that was a courtesy copy of Petition for Nullification of the Judgment of
the Fifth Circuit Which Reversed a Judgment of This Court that I received on June 25, 2014. The
District Court cannot nullify an Appellate Court decision but she attempts to have this done.
She then filed a Rule to Show Cause to remove Mr. Jenkins' name from the birth certificate.
She makes assertions and arguments not supported by law. For example, in her October 17,
2014, Rule, she alleges that hearsay statements can be an exception to the hearsay rule when the
hearsay statement is made by the father of the child. I am unaware of any rule in the Louisiana
Code of Evidence that supports such an assertion. I filed an Exception of Prescription on
November 20, 2014, alleging that there is no statute under which this case can proceed. There
are only two statutes under which a party can proceed in this type of case. The 5th Circuit already
ruled that one of them was prescribed. I filed an Exception saying that the action was prescribed
under the other statute as well. Ms. Abadie filed numerous memorandums opposing my exception.
1 filed a reply memorandum. The hearing on Ms. Abadie's request to remove Mr. Jenkins name
from the birth certificate and My Exception was on January 21, 2015. The trial court denied the
Exception of Prescription, found Mr. Jenkins to not be the father of the minor child, but took under
advisement the issue of removing his name from the birth certificate. The Court subsequently
denied Ms. Abadie's request to remove the father's name from the birth certificate.
On February 9, 2015, Ms. Abadie filed for a name change with the Court. To my
knowledge, a Judgment effecting a name change was never signed by the Court. I filed a Motion
and Order for Appeal on February 25, 2015. After I filed my appeal, Ms. Abadie sent the District
Court's Judgment (finding Mr. Jenkins' not to be the child's father) to Vital Records and had the
child's birth certificate re-issued, removing Mr. Jenkins as the father and changing the child's last
name. Ms. Tuckson was appalled that such measure could be taken without her knowledge. I
personally spoke with Vital Records and they were not aware of the pending appeal (this will be
discussed later in the Juvenile Court portion).
In May, 2015, Ms. Abadie filed a Motion to Dismiss my appeal on the grounds that it should
have been an application for supervisory writs. The 5th Circuit dismissed my appeal but gave me
30 days to file for supervisory writs. The 30 day deadline would have been June 25, 2015. I filed
my Application for Supervisory Writs on June 23, 2015. Ms. Abadie filed an Opposition for my
Application on June 30, 2015. Her Opposition cited events that never happened, including an
implied inappropriate demeanor by me while in Jefferson Juvenile Court. Ms. Abadie used her
Opposition to my Application for Supervisory Writs as an opportunity to insult me, even though said
insults had no bearing on the writ application. My Application for Supervisory Writ was for a
February, 2015, Judgment from 24m Judicial District Court. Ms. Abadie relied on imaginary events
from a June, 2015, hearing from Jefferson Juvenile Court, all in an attempt to undermine me to the
Court.

4

006

rs‘

The Fifth Circuit granted my Application for Supervisory Writs. Ms. Abadie• requested
rehearing from the Fifth Circuit, which it denied. She then filed for a stay and for writ of certiorari
from the Louisiana Supreme Court, both of which were denied.
Her most recent attack was received on September 14, 2015, where Ms. Abadie accuses
Judge Murphy and Department of Children and Family Services of colluding to prevent her case
from going forward. She accuses me of requesting an improper and unnecessary continuance
from Juvenile Court, which Juvenile Court granted, so that Judge Murphy could take the Writ
Application and grant it. This assertion could be no further from the truth and such a statement is
highly offensive to all parties maligned.
While all of the aforementioned things are occurring with the 24th Judicial District Court
case, there is also a pending case before Jefferson Juvenile Court. Ms. Abadie did not realize that
she could not stop Mr. Jenkins' child support obligation while he was still the legal father. Ms.
Abadie filed numerous Petitions with Jefferson Juvenile Court, which were denied by the Court.
Finally, in 2014, I filed an Opposition to her requested relief, specifically stating the proper
procedure for what Ms. Abadie wished to accomplish. Due to the attorney's fees that Ms. Tuckson
incurred to defend all of the unnecessary motions filed by Ms. Abadie, I requested that she be
sanctioned for her behavior. Judge Burmaster denied my request at that time.
After Judge Steib ruled that Mr. Jenkins was not the child's legal father, Ms. Abadie filed
to terminate Mr. Jenkins' child support obligation, which came for hearing on February 23, 2015.
Judge Burmaster did not terminate Mr. Jenkins' child support obligation at that time because Mr.
Jenkins' name was still on the birth certificate. It was then that Ms. Abadie had his name removed
without letting anyone know of her actions. On March 29, 2015, after I filed for an appeal of the
24th Judicial District Court JudOment, she filed a Rule stating that Mr. Jenkins was removed as the
father on the child birth certificate and to terminate the child support obligation. This came for
hearing .on April 27, 2015. At this hearing, I was given 30 days to address whether Mr. Jenkins
should still be the legal father. I filed my memorandum on May 26, 2015, stating that the birth
certificate was improperly altered (specifically stating how it was improperly altered). Further,
because the appeal was still pending, Jefferson Juvenile Court should not take any action until all
appellate review was complete. I mailed a courtesy copy of my memorandum to Ms. Abadie on
the same date. For some reason, she did not receive it by May 290h. I then faxed her a copy ormy
memorandum. In her Opposition, Ms. Abadie told the Court that I intentionally did not send her my
Memorandum so that she did not have 7 days to respond. This cannot be further from the truth.
I only practice family law and have done so for almost six years. I am very much capable of not
falling into the "drama" of my cases and maintaining my professional composure in my practice.
I do not make things personal for the opposing attorney. Having such a statement made to the
Court is disturbing. Her memorandum goes on to state that I refused to obey a Court order, which
is also completely false.
The matter came before Judge Burmaster on June 15, 2015. I issued a trial subpoena to
Robin Lewis of Louisiana Vital Records to testify regarding the information she kneW or did not
know when the request to change the child's birth certificate was made. Had Ms. Lewis known all
of the facts, she would not have amended the birth certificate.
Judge Burmaster stayed everything until the appellate review was complete. At this June
15, 2015, hearing, Ms. Abadie repeatedly stated that my appeal was dismissed by the 5"1 Circuit.
I informed her and the Court that while my appeal was dismissed, I had 30 days to apply for
Supervisory Writs. Ms. Abadie asked me, in Open Court, why I had not sent her a copy of my

007

Application for Supervisory Writs. Of course, at this time, she had not received my Application for
Supervisory Writs because they were not due with the Court yet. At no time, EVER did I "smile
and shrug as if [I] could not understand why''she did not receive my Writ Application, as stated by
Ms. Abadie in her Opposition to my Writ Application.
I am absolutely disgusted by Ms. Abadie's lack of professionalism. I was rather irked by
her statements in her memorandums and Correspondence to the Court in the beginning of June.
I was .completely appalled by her statements to the Fifth Circuit. And now that she has lost all
appellate review, she simply cannot accept defeat. She is now accusing various departments of
,state, and Appellate Judges of improper behavior. Her actions are an insult to the judicial system.
As a domeStic attorney, it takes a lot to insult me and I am astonished by MS. Abadie's lack of
profeSsionalism in this case. .Asa member of a bar, and an officer of the Court, I feel it is my
responsibility:to bring her behavior to the board's attention.
Enclosed please find the pertinent pleadings and correspondence that support the instant
cOmplaint. Should you wish that I Supplement with additional pleadings and letters, I will do so.
I realize that this is a very complicated matter. If I can address any question's for you, please feel
free to call me at the above listed contact information. You can alsoreach District Attorney Timothy
O'Rourke at (604) 364-3609 as he also has first hand knowledge of Ms. Abadie's unprofessional
behavior.

With kindest regards,
Yours very truly,

lm

:KRIS:TY R. TREADAWAY
KRT
enclosures

